United States Court of Appeals
For the First Circuit
No. 21-1334
RONALD PEDEN,
Plaintiff - Appellant,
v.
DEMOCRATIC NATIONAL COMMITTEE, DNC; TOM PEREZ, Chairman, DNC; SEEMA
NANDA, f/k/a CEO, DNC; PUBLIC BROADCASTING SERVICE, PBS; PAULA KERGER,
President and CEO, PBS; JUDY WOODRUFF, Anchor, Managing Editor, PBS; MARK D.
SHIELDS, Political Analyst, The PBS Newshour; GREATER WASHINGTON
EDUCATIONAL TELECOMMUNICATIONS ASSOCIATION, INC., owner of WETA
TELEVISION; SARA JUST, Executive Producer, PBS Newshour; DANA ROBERSON,
Executive Producer, PBS Newshour; COMCAST CORPORATION, Parent of NBCUniversal;
BRIAN L. ROBERTS, Chairman and CEO of Comcast; NBC UNIVERSAL MEDIA, LLC;
STEVE BURKE, Chairman, NBCUniversal Media; JEFF SHELL, CEO, NBCUniversal; MARK
LAZARUS, Chairman, NBCUniversal Broadcast, Entertainment & Lifestyle, Sports and News;
CESAR CONDE, Chairman, NBCUniversal News Group; NOAH OPPENHEIM, President,
NBC News; ANDREW LACK, Chairman, NBCUniversal News Group; JENNIFER SUOZZO,
Executive Producer, NBC Nightly News; MATT FRUCCI, Executive Producer, NBC Nightly
News; JOHN REISS, Executive Producer, Meet the Press; CHARLES DAVID TODD, "Chuck",
Political Director, NBC News; NATIONAL AMUSEMENTS, INC., Holding Company of
ViacomCBS; SHARI ELLIN REDSTONE, President, National Amusements, Inc.;
VIACOMCBS, Parent Company of CBS News and Face the Nation; ROBERT MARC
BAKISH, President and CEO, ViacomCBS; GEORGE CHEEKS, Chairman and CEO, CBS
Entertainment Group; COLUMBIA BROADCASTING SYSTEM, CBS; SUSAN ZIRINSKY,
President and Sr. Executive Producer, CBS News; NORAH O'DONNELL, Anchor and
Managing Editor, CBS Evening News; MARY HAGER, Executive Producer, Face the Nation;
CATHERINE REYNOLDS, Producer, Face the Nation; JILLIAN HUGHES, Producer, Face the
Nation; ELIZABETH CAMPBELL, Producer, Face the Nation; JAKE MILLER, Producer, Face
the Nation; THE WALT DISNEY COMPANY, ("Disney"), owner of Disney Media Networks,
part of ABC; BOB IGER, Chairman and CEO, Walt Disney; ALAN HORN, Co-Chairman, Walt
Disney Studios; AMERICAN BROADCASTING COMPANIES, INC.; JAMES GOLDSTON,
President, ABC; GEORGE STEPHANOPOULOS, Chief Political Correspondent, ABC News;
DAVID MUIR, Anchor, Managing Ed., ABC WorldNews Tonight,
Defendants - Appellees.

~kppesic/iX 4
t

K

**■

Before
Howard, Chief Judge.
Lynch and Thompson, Circuit Judges.
JUDGMENT
Entered: June 30, 2021
Because no timely notice of appeal, nor timely motion to extend the time for appeal, was
filed, this appeal is dismissed for lack of jurisdiction. Bowles v. Russell. 551 U.S. 205, 214 (2007)
("the timely filing of a notice of appeal in a civil case is a jurisdictional requirement").

By the Court:
Maria R. Hamilton, Clerk

cc:

Ronald Peden

Case l:21-cv-10360-PBS Document 5 Filed 03/23/21 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

T
RONALD PEDEN
Plaintiff,
v.
DEMOCRATIC NATIONAL
COMMITTEE, ET AL,
Defendants.

)
)
)
)
)
)

Civil Action No.
21-CV-10360-PBS

)
)

ORDER OF DISMISSAL
Saris, D.J.
In

accordance

with

the

(Dkt. No. 4), dated March 23, 2021,
ORDERED,

that the

Court's Order
it is hereby

above-entitled action is dismissed

with prejudice.
By the Court,
3/23/2021
Date

/s/ Casey Baker
Deputy Clerk

Case l:20-cv-11019-PBS Document 78 Filed 10/30/20 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

RONALD PEDEN
CIVIL ACTION

Plaintiff,
v.
DEMOCRATIC NATIONAL COMMITTEE ET AL.

NO.

20-11019-PBS

Defendants.
ORDER OF DISMISSAL
SARIS, J.
In accordance with the Court's MEMORANDUM AND ORDER dated October
30, 2020, it is hereby ORDERED that the above-entitled action be and hereby is
dismissed.

By the Court,
October 30, 2020
Date

Is! Daniel C. Hohler
Deputy Clerk

United States Court of Appeals
For the First Circuit
No. 20-2156
RONALD PEDEN,
Plaintiff - Appellant,
v.
DEMOCRATIC NATIONAL COMMITTEE; TOM PEREZ, Chairman; SEEMA NANDA,
FMR, CEO, DNC; PUBLIC BROADCASTING SERVICE, PBS; PAULA KERGER, President
and CEO, PBS; JUDY WOODRUFF, Anchor and Managing Editor, PBS Newshour; MARK D.
SHIELDS, Political Analyst, The PBS Newshour; GREATER WASHINGTON
EDUCATIONAL TELECOMMUNICATIONS ASSOCIATION, INC., owner of WETA
TELEVISION, Producer, PBS Newshour; SARA JUST, Executive Producer, PBS; DANA
ROBERTSON, Executive Producer, PBS Newshour; COMCAST CORPORATION, Parent of
NBC Universal; BRIAN L. ROBERTS, Chairman and CEO of Comcast; NBCUNIVERSAL
MEDIA, LLC; STEVE BURKE, Chairman, NBC Universal Media; JEFF SHELL, CEO, NBC
Universal; CESAR CONDE, Chairman NBC Universal News Group; NOAH OPPENHEIM,
President of NBC News; ANDREW LACK, Chairman, NBCUniversal Media Group;
JENNIFER SUOZZO, Executive Producer; MATT FRUCCI, Executive Producer, NBC Nightly
News; JOHN REISS, Executive Producer, Meet the Press; CHARLES DAVID TODD, "Chuck",
Political Director, NBC News; NATIONAL AMUSEMENTS, INC., Holding Company of
ViacomCBS; SUMNER REDSTONE, Chairman and CEO of National Amusements, Inc.;
SHARI ELLIN REDSTONE; VIACOMCBS, Parent Company of CBS News and Face The
Nation; ROBERT MARC BAKISH, President and CEO of ViacomCBS; GEORGE CHEEKS,
Chairman and CEO, CBS Entertainment Group; COLUMBIA BROADCASTING SYSTEM,
CBS; SUSAN ZIRINSKY, President and Sr. Executive Producer, CBS News; NORAH
O'DONNELL, Anchor and Managing Editor, CBS Evening News; MARY HAGER, Executive
Producer, Face the Nation; CATHERINE REYNOLDS, Producer, Face The Nation; JILLIAN
HUGHES, Producer Face The Nation; ELIZABETH CAMPBELL, Producer Face The Nation;
JAKE MILLER, Producer, Face The Nation; WALT DISNEY COMPANY, "Disney" Owner of
Media Networks, parent of ABC; BOB IGER, Chairman and CEO, Walt Disney; ALAN HORN,
Co-Chairman Walt Disney Studios; AMERICAN BROADCASTING COMPANIES, INC.;
JAMES GOLDSTON, President, ABC; GEORGE STEPHANOPOULOS, Chief Political
Correspondent for ABC News; DAVID MUIR, Anchor Managing Ed., ABC WorldNews
Tonight; DAVID L. COHEN, Sr. Executive VP, Comcast; KIMBERLEY D. HARRIS,
Executive VP, Comcast; MARK LAZARUS, Chairman, NBCUniversal News,
Defendants - Appellees.

w /

Before
Howard, Chief Judge,
Thompson and Kayatta, Circuit Judges.
JUDGMENT
Entered: February 22, 2021
Because no timely notice of appeal, nor timely motion to extend the time for appeal, was
filed, this appeal is dismissed for lack of jurisdiction. Bowles v. Russell, 551 U.S. 205, 214 (2007)
("the timely filing of a notice of appeal in a civil case is a jurisdictional requirement").

By the Court:
Maria R. Hamilton, Clerk

cc:
Jonathan M. Albano
Ronald Peden
Cheryl Zak Lardieri
Marc E. Elias
Jyoti Jasrasaria

